                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF THE
                                              SCHENCK JOB CORPS CIVILIAN
                                              CONSERVATION CENTER




                                                       Date Issued: Draft Date Issued: March 21, 2008
                                                       Report Number: 26-07-XXX-XX-XXX
                                                                          Report Number: 26-08-002-01-370
                                                     U.S. Department of Labor
BRIEFLY…                                             Office of Inspector General
                                                     Office of Audit

Highlights of Report Number 26-08-002-01-370,        WHAT OIG FOUND
Performance Audit of The Schenck Job Corps           We concluded Schenck management did not
Civilian Conservation Center, to the National        always report financial and performance data
Director, Office of Job Corps, dated March 21,       accurately, and the Center’s internal controls and
2008.                                                operational procedures did not always comply with
                                                     Job Corps’ PRH. Specifically, the Center’s PY
WHY READ THE REPORT                                  2005 costs reported on the Form 2110F Financial
The report discusses the results of a performance    Reports did not agree with the USDA Forest
audit of the Schenck Job Corps Civilian              Service’s General Ledger, and we questioned
Conservation Center, which is operated by the        $169,847 in unsupported costs. Further, cash
United States Department of Agriculture’s Forest     received from the sale of meal tickets and fines for
Service (USDA Forest Service). The audit             government property lost or damaged was not
assessed the Center’s performance and financial      deposited and reused by the Center. In addition,
results and whether the Center’s internal controls   PY 2005 student accountability performance data
and operational procedures complied with Job         reported in the Center Information System (CIS)
Corps’ Policy and Requirements Handbook (PRH).       was not reliable, and Center management did not
                                                     comply with Job Corps leave and absent without
WHY OIG CONDUCTED THE AUDIT                          leave (AWOL) policies, which resulted in retaining
Our audit objectives answered the following six      74 students for 2,744 days beyond their required
questions:                                           termination dates.
   1. Did the USDA Forest Service and the            Lastly, we concluded that Schenck officials
      Center properly account for and report         properly accounted for student accomplishments;
      Program Year (PY) 2005 expenditures?           established a student drug testing program;
                                                     complied with safety and health requirements; and
   2. Did Center management establish and            established procedures to prevent student access
      implement standard operating procedures        to unauthorized internet web sites.
      for student accountability?
                                                     WHAT OIG RECOMMENDED
   3. Were student accomplishments reported          We made 14 recommendations designed to
      correctly and did Center personnel             improve the overall accuracy of the financial and
      maintain required documentation?               performance data reported by the Center to the
                                                     Office of Job Corps. In general, we recommended
   4. Did Center management establish a              increased compliance with the PRH and more on-
      Student Drug Testing Program?                  site monitoring efforts by the USDA Forest Service
                                                     and by Job Corps. Specifically, we made six
    5. Did Center personnel comply with student      recommendations for improvements to the
       safety and health inspection procedures       Center’s financial management and reporting
       governing Job Corps facilities, and were      through the use of accrual accounting and
       any identified problems expeditiously         compliance with asset acquisition and reporting
       addressed?                                    requirements and eight recommendations to
                                                     improve the Center’s Student Accountability by
   6. Were procedures in place to prevent            complying with rules to account for students, for
      access to unauthorized internet web sites?     granting leave, and for monitoring AWOL.
READ THE FULL REPORT                                 HOW AUDITEE RESPONDED
To view the report, including the scope,             The National Director, Office of Job Corps and the
methodology, and full agency response, go to:        USDA Forest Service concurred with the report’s
http://www.oig.dol.gov/public/reports/oa/2008/26-    findings and each of the 14 recommendations
08-002-01-370                                        offered for improvement.
                                    Performance Audit Of Schenck Job Corps Civilian Conservation Center




Table of Contents
                                                                                                                         PAGE
EXECUTIVE SUMMARY ................................................................................................ 1

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

   Finding 1. – The USDA Forest Service and the Center did not
                account for and report PY 2005 Center expenses in
                compliance with procedures outlined in the PRH. ............................ 7

   Finding 2. – Center management complied with the PRH
                requirement to establish standard operating
                procedures that described student accountability;
                however, PY 2005 performance data related to student
                accountability was unreliable. .......................................................... 15

   Finding 3. – Student accomplishments were correctly reported in
                the CIS, and Center personnel maintained PRH
                required documentation necessary to support
                accomplishments for High School Diplomas, GED
                Certificates, and Vocational Completions........................................ 24

   Finding 4. – Center management established a drug-testing
                program that generally complied with the PRH............................... 24

   Finding 5. – Center personnel complied with safety and health
                inspection procedures governing Job Corps facilities
                as called for in the PRH. .................................................................... 25

   Finding 6. – Center personnel established procedures to prevent
                access to unauthorized internet web sites. ..................................... 25

EXHIBIT ........................................................................................................................ 27

   EXHIBIT 1 Comparison Between Center 2110F and General Ledger ................. 29

   EXHIBIT 2 Exceptions Noted During Student Leave Testing.............................. 31

APPENDICES ............................................................................................................... 33

   APPENDIX A Background....................................................................................... 35

   APPENDIX B Objectives, Scope, Methodology, and Criteria............................... 37

U.S. Department of Labor—Office of Inspector General
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

  APPENDIX C Acronyms and Abbreviations .......................................................... 43

  APPENDIX D Auditee Response to Report............................................................ 45




                                             U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the Schenck
Job Corps Civilian Conservation Center (Center) located at Pisgah Forest, North
Carolina. The United States Department of Agriculture’s Forest Service (USDA Forest
Service) operated the Center that has an authorized On-Board Strength of 224 students
and annual operating budget of approximately $6 million. The Center, randomly
selected for audit, is part of the OIG’s ongoing coverage of the Department of Labor
(DOL) Job Corps Centers and their operators.

Our audit objective was to determine whether financial and performance data were
accurate, and whether the Center’s internal controls and operational procedures
complied with Job Corps’ Policy and Requirements Handbook (PRH). We reviewed
financial and performance data for Program Year (PY) 2005 that ended June 30, 2006.
We examined financial data used to prepare the Center’s Form 2110F and performance
data that comprised the Center’s reported student accountability and student
accomplishments. We also examined key internal controls related to the Student Drug
Testing Program, to student safety and health inspections associated with Job Corps
facilities, and to preventing access to unauthorized internet web sites.

Results


Center management did not report financial and performance data accurately, and the
Center’s internal controls and operational procedures did not always comply with Job
Corps’ PRH. The Center’s PY 2005 costs reported on the Form 2110F Financial
Reports did not agree with the USDA Forest Service’s General Ledger. The Center
Form 2110F reported $102,894 less in 9 cost categories and $107,682 more in 5 cost
categories than was reported in the US Forest Service’s General Ledger. Cumulatively,
these 14 differences had an offsetting affect, and resulted in a net difference of only
$4,788. While the net difference is not material to the overall costs, inaccurate reporting
to the Office of Job Corps is significant. We concluded the reported cost variances
resulted because the Center did not accrue expenses, did not always record expenses
in time to appear on the 2110F, and misclassified expenses. In addition, payments
were not properly processed nor supported by proper documentation. We questioned
unsupported costs totaling $169,847 that resulted from problems with inadequate
documentation, invoice processing, and compliance with the Federal Acquisition
Regulations (FAR). Further, cash received from the sale of meal tickets and fines for
government property lost or damaged was not deposited and reused by the Center.

PY 2005 student accountability performance data reported in the Center Information
System (CIS) was not reliable because the procedures used to account for students did
not work as designed. The Center’s signature sheets, bed checks, and class
attendance records were often missing or the student’s status disagreed with the
Center’s Morning Reports. In addition, management granted student leave that was not

U.S. Department of Labor—Office of Inspector General                                      1
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

reasonable, supportable, or allowable. Further, management did not comply with the
PRH requirement to terminate students with excessive amounts of Absent Without
Leave (AWOL) (82 percent error rate) and did not document their efforts to contact
these students (88 percent error rate). Because Center management did not comply
with Job Corps leave and AWOL policies, the Center retained 74 students for 2,744
days beyond their required termination dates.

The Center’s reported performance data for student accomplishments was accurate. In
addition, Center management established a viable Student Drug Testing Program,
conducted student safety and health inspections of Job Corps facilities, and established
controls to prevent access to unauthorized internet web sites.

Recommendations

We made 14 recommendations to improve the overall accuracy of the financial and
performance data reported by the Center to the Office of Job Corps.

Six of the 14 recommendations addressed improvements to the Center’s financial
management and reporting. We recommended improved financial reporting through
better reconciliation procedures and the implementation of accrual accounting. We also
recommended actions to improve internal controls in the areas of contract payments,
hiring temporary employees, invoice processing, compliance with the FAR, ensuring
expenses support the Job Corps mission, and for the proper recording of expenses and
posting collected cash as a credit to the Center.

Eight of the 14 recommendations were designed to improve the Center’s Student
Accountability. We recommended the Center comply with its sign-in, bed check and
class attendance requirements and retain supporting documentation for 3-years; only
grant student leave in accordance with the PRH; expeditiously terminate students that
violate PRH AWOL policy; and document all attempts to contact AWOL students. In
addition, we recommended the DOL Program Manager and the USDA Forest Service
Project Manager increase oversight of student AWOL problems at the Center and
intensify on-site monitoring efforts.

Auditee Response
The DOL, Office of Job Corps, National Director concurred with the audit’s findings and
all 14 recommendations for improvement. Job Corps’ verbatim response to all 14 audit
recommendations is included in Appendix D of this report. The verbatim response
provided by the DOL, Office of Job Corps, National Director includes corrective actions
planned by the USDA Forest Service, National Director of Job Corps and separate
corrective actions planned by the DOL, Office of Job Corps, National Director through
directions made to the DOL, Office of Job Corps, Atlanta Regional Director.

Regarding the six recommendations to improve financial management, the USDA
Forest Service, National Director of Job Corps listed specific actions to include

2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


improved cost reporting and timeliness; reconciled 2110F reports; retained contracting
documents; compliance with guidelines for hiring temporary employees; properly
reported and recorded expenses along with adequate support; improved cash handling
and recording; and validation and reporting of questioned costs supported by a report of
results to the DOL, Office of Job Corps, Atlanta Regional Director.

In addition, the DOL, Office of Job Corps, National Director instructed the DOL, Office of
Job Corps, Atlanta Regional Director to: provide technical assistance and training to
USDA Forest Service personnel and Center staff as requested; monitor 2110F reports
submitted by Center staff; and monitor Center compliance through desktop monitoring,
site visits, and annual center assessments.

Regarding the eight recommendations to improve the Center’s Student Accountability,
the USDA Forest Service, National Director of Job Corps: installed standard operating
procedures (SOPs) and a log book on center to monitor students; installed multiple
SOPs to ensure data integrity and required student accountability documentation be
retained for no less than 3 years; installed SOPs requiring student leave be reasonable,
supportable, and allowable; installed SOPs requiring student terminations for violations
of the PRH AWOL requirements; directed Center staff to immediately attempt to contact
all AWOL students and to record their contact efforts in the student’s file; and directed
both a joint review of questioned costs and a report of outcomes of the review with and
for the DOL, Office of Job Corps, Atlanta Regional Director. Further, the USDA Forest
Service personnel installed SOPs to prevent AWOL violations and conducted training
for center directors covering AWOL tracking, data integrity, and zero tolerance topics.

Additionally, the DOL, National Office of Job Corps personnel will work with the DOL,
Office of Job Corps, Atlanta Regional Office staff to review CIS reports for students in
AWOL status, identify non-compliance, report outcomes, and make recommendations
to hold Center staff responsible for any questionable findings. Further, the DOL, Office
of Job Corps, Atlanta Regional Director will issue a directive to the USDA Forest
Service, National Director of Job Corps requesting reviews of CIS reports for students in
AWOL status along with a report of their findings and both agencies will work to
reconcile the findings identified by each office. Lastly, the USDA Forest Service,
National Director of Job Corps and the DOL, Office of Job Corps, Atlanta Regional
Director will increase monitoring efforts to ensure all USDA Forest Service center
directors comply with PRH requirements.

OIG Conclusion
The OIG agrees that the planned corrective actions were appropriate to the
recommendations made, and based on actions taken by the USDA Forest Service,
National Director of Job Corps, we consider recommendations 7, 9, 11, and 13 resolved
and closed. We also consider recommendations 1, 2, 3, 4, 5, 6, 8, 10, 12, and 14 as
resolved and open. To close these recommendations, the Office of Job Corps needs to
provide documentation showing their planned corrective actions have been completed.



U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

Also, please note that we made technical corrections and minor edits in this report. For
example, the questioned costs of $171,719 in Recommendation 6 (Page 14) were
corrected to $169,847. Correspondingly, Job Corps’ response to our Draft Report in
Appendix D, (Pages 46 and 47), reflects the previous incorrect amount of $171,719 for
Recommendation 6.




4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




March 21, 2008


                         Assistant Inspector General’s Report


Esther R. Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We conducted a performance audit of the Schenck Job Corps Civilian Conservation
Center (Center) located at Pisgah Forest, North Carolina. The Center, operated by the
United States Department of Agriculture Forest Service (USDA Forest Service), had
Program Year (PY) 2005 expenditures of approximately $6 million and an authorized
On-Board Strength of 224 students. The Center was one of three USDA Forest Service
Job Corps Civilian Conservation Centers randomly selected for audit. We plan to use
the information from each Center to issue a summary report covering policies and
practices of the USDA Forest Service, Job Corps National Office located in Denver,
Colorado.

Our audit objective was to determine whether financial and performance data were
accurate, and whether the Center’s internal controls and operational procedures
complied with Job Corps’ Policy and Requirements Handbook (PRH). We reviewed
financial and performance data for PY 2005 that ended on June 30, 2006. We
examined financial data used to prepare the Center’s Form 2110F and performance
data that comprised the Center’s reported student accountability and student
accomplishments. We also examined key internal controls related to the Student Drug
Testing Program, to student safety and health inspections associated with Job Corps
facilities, and to preventing access to unauthorized internet web sites. To accomplish
the audit, we formulated six sub-objectives. Each sub-objective is presented below in
the form of a question, and we answered each question in our report.

   1. Financial Management and Reporting. Did the USDA Forest Service and the
      Center account for and report the Center’s PY 2005 expenditures totaling
      approximately $6 million in accordance with procedures outlined in the PRH?

   2. Student Accountability. Did Center management comply with PRH
      requirements to establish standard operating procedures that describe student
      accountability and were these procedures properly implemented?


U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

    3. Student Accomplishments. Were student accomplishments reported correctly
       into the Center Information System (CIS) and did Center personnel maintain
       PRH required documentation necessary to support accomplishments for High
       School Diplomas, General Educational Development (GED) Certificates, and
       Vocational Completions?

    4. Student Drug Testing Program. Did Center management establish a Student
       Drug Testing Program that complied with the PRH?

    5. Student Safety and Health Associated with Job Corps Facilities. Did Center
       personnel comply with student safety and health inspection procedures
       governing Job Corps facilities as called for in the PRH, and did Center
       management expeditiously address problems discovered during inspections?

    6. Internet Security. Did Center personnel establish procedures to prevent access
       to unauthorized internet web sites?

We conducted this audit in accordance with the Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. We have
provided additional background information in Appendix A, and the audit’s objectives,
scope, methodology, and criteria are discussed in Appendix B.

Center management did not report financial and performance data accurately, and the
Center’s internal controls and operational procedures did not comply with Job Corps’
PRH. PY 2005 costs reported on the 2110F Financial Reports for the Center did not
agree with the USDA Forest Service’s General Ledger. Accrual accounting issues and
reporting disagreements by cost categories affirmed the Center’s processes did not
comply with the PRH. Lack of adequate controls for invoice/payment processing and
contract acquisition called for in the PRH and in the Federal Acquisition Regulations
(FAR) resulted in unsupported and unauthorized cost of $169,847. Lack of adequate
controls over cash received on Center from the sale of meal tickets and student fines for
government property lost or damaged (GPLDs) resulted in funds not properly deposited
and credited against Center expenses during PY 2005. PY 2005 performance data
related to student accountability was unreliable because the procedures used to
account for students did not work as designed. As a result, student attendance, leave,
and absent without leave (AWOL) data in the Center Information System (CIS) were not
reliable. Moreover, Center management did not comply with Job Corps leave and
AWOL policies, and as a result, the Center retained 74 students for 2,744 days beyond
their required termination dates.

The Center’s reported performance data for student accomplishments was accurate. In
addition, Center management established a viable Student Drug Testing Program,
conducted student safety and health inspections of Job Corps facilities, and established
controls to prevent access to unauthorized internet web sites.




6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


Objective 1 – Financial Management and Reporting – Did the USDA Forest
Service and the Center account for and report the Center’s PY 2005 expenditures
totaling approximately $6 million in accordance with procedures outlined in the
PRH?


Finding 1. – The USDA Forest Service and the Center did not account for and
report PY 2005 Center expenses in compliance with procedures outlined in the
PRH.

The costs reported on the Center’s Form 2110F Financial Reports did not agree with
the costs contained in the USDA Forest Service’s General Ledger for PY 2005. The
Center’s Form 2110F reported $102,894 less in 9 cost categories and $107,682 more in
5 cost categories than was reported in the US Forest Service’s General Ledger.
Cumulatively, these 14 differences had an offsetting affect, and resulted in a net
difference of only $4,788. While the net difference is not material to the overall costs,
inaccurate reporting to the Office of Job Corps is significant. We concluded the
reported cost variances resulted because the Center did not accrue expenses, did not
always record expenses in time to appear on the 2110F, and misclassified expenses.
(Finding 1a)

Payments were not properly processed nor supported by proper documentation; and we
questioned unsupported costs totaling $169,847. We reviewed 33 payments totaling
$263,785 that the Center reported on the U.S. Forest Service’s General Ledger, and
found 11 payments (33 percent) lacked the supporting documentation necessary to
conclude the transactions were proper and in compliance with existing Job Corps’ and
Forest Service’s policies. In addition, we also identified transactions that were
unauthorized because employees were improperly hired; contracts had expired but
were still in use; and we found problems with payment processes at the Center. This
occurred because US Forest Service personnel did not follow USDA Forest Service,
PRH, and FAR requirements. (Finding 1b)

The Center lacked adequate controls over cash received from the sale of meal tickets
and student fines for government property lost or damaged (GPLDs), which resulted in
funds not properly deposited and credited against Center expenses during PY 2005.
(Finding 1c)


Background. Congress annually appropriates funds to the DOL, Office of Job Corps,
to operate 122 Centers. Federally operated Centers, such as Schenck, submit an
annual budget to the Department requesting funds to operate their Center. DOL
reviews, amends as necessary, and approves each budget request. Each Center’s
spending is shown on the Job Corps’ Center Financial Report, Form 2110F. This
report, required quarterly, shows all expenses that supported Job Corps mission. In
order to complete a quarterly report, each Center must establish and maintain a
financial management system to account for all funds used in support of Job Corps.
The USDA Forest Service uses a centralized financial accounting system at its

U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

Albuquerque Service Center and established 29 separate accounting codes to identify
all of the Center’s expenses. These accounting codes cross match to Form 2110F.

DOL funds its Centers to support Job Corps’ mission, and accordingly, expenses must
meet Federal guidelines as being reasonable, allowable, and allocable. Consequently,
all Centers must adhere to PRH guidelines that in general, require managers to
establish the necessary internal controls to ensure compliance with Federal guidelines.
A Center in compliance with the guidelines would create and maintain documentation to
support all expenses and comply with FAR requirements when entering into contracts.

Centers record costs into their General Ledger. Funds collected from feeding people
other than students in the Center’s dining hall and cash collections resulting from the
loss or destruction of government property are used to offset the Centers’ expenses. It
is incumbent upon each Center to establish the necessary internal controls to collect
these funds, post the proper accounting entries, and ensure collected funds are
deposited back into Center accounts to support Job Corps’ mission.

Finding 1a. The USDA Forest Service and the Center did not follow PRH
guidelines to account for DOL funds.

The costs reported on the Center’s Form 2110F Financial Reports did not agree with
the costs contained in the USDA Forest Service’s General Ledger for PY 2005. The
Center’s Form 2110F reported $102,894 less in 9 cost categories and $107,682 more
in 5 cost categories than was reported in the US Forest Service’s General Ledger.
Cumulatively, these 14 differences had an offsetting affect, and resulted in a net
difference of only $4,788. While the net difference is not material to the overall costs,
inaccurate reporting to the Office of Job Corps is significant. We concluded the
reported cost variances resulted because the Center did not accrue expenses, did not
always record expenses in time to appear on the 2110F, and misclassified expenses.

PRH Chapter 5, entitled, “Management”, Appendix 502, section E(4), “Accrual
Reporting” states the following regarding the accrual of costs on the 2110F reports:

       Costs reported on the “2110F” must always be on the accrual basis, i.e. the
       cost of material and services received, regardless of when the invoices are
       received or paid…It is important that all such charges, including earned, but
       unpaid salaries and payroll related costs, be accrued so that reported costs
       include all incurred expenses. Federal centers are permitted to expense
       inventory when received. This is the only exception to accrual accounting and
       reporting.

Section E also provides for timely and accurate reporting of expenses for Federal
Centers.

The Center’s Administrative Officer stated that the PY 2005 Form 2110F report is due to
the Job Corps Data Center by the 20th day after the end of the PY and some expenses


8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


are not posted timely to the General Ledger. In addition, while testing a sample of 33
expenses recorded on the Form 2110F (see Finding 1b), we noted that four expenses
totaling $15,732 were misclassified. The table at Exhibit 1 shows the differences, by
expense category, between costs on the PY 2005 Form 2110F report and costs in the
Center’s General Ledger.

Finding 1b. Payments were not properly processed nor supported by proper
documentation; and we questioned unsupported costs totaling $169,847.

We reviewed 33 payments totaling $263,785 that the Center reported on the U.S.
Forest Service’s General Ledger, and questioned costs totaling $169,847. We found 11
payments (33 percent) lacked the supporting documentation necessary to conclude the
transactions were proper and in compliance with existing Job Corps’ and Forest
Service’s policies. We identified transactions that were unauthorized because
employees were improperly hired; contracts had expired but were still in use; and we
found problems with payment processes at the Center. This occurred because US
Forest Service personnel did not follow USDA Forest Service, PRH, and FAR
requirements.

We found that payments for welding instruction services, furniture, employment
positions, and travel were not supported with proper documentation that included
expense vouchers and related receipts, contracts, and approved employment
agreements. Also, some transactions that were not supported failed to comply with
prevailing acquisition policy. Specifically, contracts entered into for welding instruction
services, the hiring of temporary and fulltime employees, and acquisition for furniture did
not comply with the FAR. In addition, costs for a student’s medical care, a magazine
subscription, and furniture payments were not properly processed or appropriately
authorized for payment.

The table shown below captures information about the noted exceptions. After the
table, we have provided a discussion for each exception shown in the table.




U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

                      Payments Reviewed and Questioned Costs


Sample         Exception Noted           Month/     Invoice/      Adequate       Questioned
Number                                    Year      Payment       Support of     Cost Due to
Tested                                              Amounts         Cost           Lack of
                                                                                  Adequate
                                                                                  Support
            No welding instruction
            services contract in
                                           Jun
            place to support
                                          2006,
            negotiated prices and no
1, 8, and                                  July
            evidence to support that                  $143,508               0      $143,508
    10                                     thru
            the selection/award
                                           Dec
            process of the contractor
                                          2005
            was in compliance with
            FAR.
            Acquisition for office
            furniture treated as a        Aug
     20                                                   3,842              0          3,842
            Micro Purchase (under         2005
            $2,500)
            Unauthorized hiring of
                                           Oct
     26     an employee not in                             960*              0            960
                                          2005
            compliance with FAR.
            Unauthorized hiring of
                                          Sep
     28     an employee not in                            840**              0            840
                                          2005
            compliance with FAR.
            Unsupported
                                          Mar
     24     reimbursement of travel                       2,970              0          2,970
                                          2006
            costs
            Unsupported
                                          Mar
     25     reimbursement of travel                       2,648              0          2,648
                                          2006
            costs
            Unsupported
                                          Aug
     31     reimbursement of                              2,678       (1,872)             806
                                          2005
            lodging expenses.
            Student medical
            treatment invoice not         Aug
     15                                                   9,331              0          9,331
            properly approved for         2006
            payment.
            Improper invoice
                                           Jul
     32     processing resulted in                         125            (25)            100
                                          2005
            overpayment.
                      Totals                          $166,902       ($1,897)       $165,005



10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


*The Center paid the individual a total of $5,306 during July 29, 2005 to September 19,
2005. **Separately, the Center paid another individual a total of $1,336 during May 30,
2005 to March 3, 2006. Therefore, in addition to the $1,800 payments questioned
above ($960 plus $840), we questioned the additional $4,842 ($5,306 plus $1,336 =
$6,642 less $1,800 = $4,842) in payments paid to these two individuals over the course
of their employment. Accordingly, questioned costs totaled $169,847 ($4,842 plus
$165,005).

Payments Not Supported With Proper Documentation

Welding Instruction Services Payments

Payments to the American Institute of Occupational Trades (also known as Coyne
Institute) totaled $143,508 for PY 2005 for welding instruction without a written contract
in place to support negotiated and approved costs. In addition, the U.S. Forest
Service’s contracting official(s) and Job Corps’ management did not provide
documentation to support the selection and award of a contract in compliance with the
FAR.

In addition, $69,754 of the $143,508 payments made to the American Institute of
Occupational Trades for PY 2005 was incorrectly made using PY 2006 funds. During
the audit, we brought this matter to the attention of the U.S. Forest Service’s Budget
Officer, and he determined this action constituted a funding violation and took action to
“reverse” this transaction, effectively using PY 2005 funds, and restoring the PY 2006
funding.

Furniture Payments

Center officials purchased furniture costing $3,842 for the Director’s Office, but Center
officials did not properly follow the process required by the FAR when acquiring the
furniture. The acquisition was treated as a Micro Purchase (under $2,500), and the
purchasing agent did not obtain three price quotes as required by the FAR or obtain
quotes from government sources. Center officials also did not comply with FAR 8.602
(a) (1) requiring …“market research to determine whether the Federal Prison Industries
(FPI) item is comparable”, in order to determine whether the furniture should have been
procured from the FPI. Since the market research was not performed, officials did not
comply with FAR 8.602 (a) (2) requiring them to:

   “Prepare a written determination that includes supporting rationale explaining the
   assessment of price, quality, and time of delivery, based on the results of market
   research comparing the FPI item to supplies available from the private sector.”

Employment Payments

The Center Director negotiated and informally hired two hourly employees to provide
nursing services and career preparation counseling at rates of $30 and $21 per hour,
respectively. The Center paid $5,306 for the nursing services and $1,336 for the career

U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

counseling. The Center Director did not have the authority to obligate the Government
in the direct hiring of employees. According to the Office of Personnel Management
Hiring Process Model used by the USDA Forest Service, only a human resources
official may extend an offer of employment. In addition, only a Government contracting
officer (in the case of a personal services contract) has the authority to offer
employment. The FAR Subpart 1.6 dealing with Contracting Authority states:

“Contracts may be entered into and signed on behalf of the Government only by
contracting officers.”

The Center paid the employees by using convenience checks, and the transactions
were recorded in the General Ledger as expenses. After discussing this situation with
the Center’s Project Manager, he stated he was not aware of the specific circumstances
nor had he approved the hirings.

Travel Payments

Valid travel vouchers and the related receipts did not support two reimbursements for
travel of $2,970 and $2,648 made to an employee. We were informed by the
Administrative Officer that the two vouchers were prepared and submitted to the Forest
Service’s National Finance Center, however, the Center did not receive copies of the
vouchers and copies of the vouchers were not available for audit. We questioned these
costs because the Center recorded them on the Form 2110F but could not validate the
authenticity of the costs.

The Center paid $2,678 for students and an employee to travel to a leadership
conference in Memphis, Tennessee, and we questioned $806 of the total payments.
The employee who traveled was one of the informally hired employees discussed
above. The individual requested $342 more than allowed by Government travel
regulations, and their lodging receipt for $464 was missing, making the total questioned
costs $806. In addition, the Center paid her using a convenience check. Because the
center violated hiring practices, it also removed the controls that accompanied travel
voucher submissions by employees. As a result, her travel expenses were not subject
to the routine review and approval process, prior approval, and payment limitations.

Not Properly Processed or Authorized for Payment

Medical Payments

The Center paid $9,331 for a student’s emergency medical treatment. While the invoice
was available for review, it was not properly approved for payment by Center
management.




12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


Magazine Subscription Payment

A magazine subscription costing $25 for a 6 month subscription was purchased for the
Wellness Center; however, Center officials improperly processed the invoice and paid
the company $125, resulting in an overpayment of $100. The overpayment was made
in August 2005, and the Center had not received a refund at the time of our review.

Finding 1c. The Center lacked adequate controls over cash received from the
sale of meal tickets and student fines for government property lost or damaged
(GPLDs), which resulted in funds not properly deposited and credited against
Center expenses during PY 2005.

Throughout PY 2005 and until February 2007, Center officials did not deposit cash
received from the sale of meal tickets and GPLD fines. In February 2007, we counted
the cash in the safes at the Center and found $1,012 from meal ticket sales and $2,812
from student fines. We determined Center officials had an established policy for
handling cash received from the aforementioned sources. However, Center personnel
were not following the policy. As a result, the risk of loss from cash, the most liquid of
assets, was increased, and Center expenses were not offset because the funds were
not deposited and recorded as a credit in the Center’s General Ledger.

PRH Chapter 5, Part 5.6 Section R7 entitled, “Sale of Center-Produced Goods and
Services” states the following:

       “Objects or services may be sold at cost to center employees. For CCCs, sales
       to staff must be in accordance with approved agency policy.” In addition, “the
       proceeds from the sale of goods shall be credited to the cost category for the
       purchase of the materials.”

We examined the accounting transactions in the Center’s general ledger for credits to
the Food Expense category, which would reflect the cash received from the sale of meal
tickets. No such entries were identified. When the Center receives cash from selling
meal tickets, these payments should be recorded as reductions to the Food Expense
category.

We interviewed the Center’s Administrative Officer regarding cash handling procedures
from sales of meal tickets. He explained that the U.S. Forest Service procedure is: (1)
the cash is turned into a cashier’s check from a local bank and then (2) mailed to a U.S.
Forest Service lock box in California along with a form explaining which Job Corps
accounts should be credited. We were further informed that the Center is behind in
making these deposits, and, in fact, no such deposits were made at the Center during
PY 2005 through February 2007.

We were informed that the process for the Center’s handling of funds received from
GPLDs is similar to that of meal tickets, and that no deposits were made for these funds
as well during PY 2005 through February 2007.


U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

Recommendations.

We recommend that the National Director, Office of Job Corps, direct the Atlanta
Regional Job Corps Director to coordinate a series of corrective actions and planned
actions with the USDA Forest Service, Job Corps National Director of Field Operations
to require Center management to:

     1. Establish controls and verify costs submitted to DOL are accurate by reporting on
        an accrual basis of accounting in accordance with the PRH, recording costs in a
        timely manner, and classifying costs correctly.

     2. Maintain copies of all contracts supporting the Schenck Job Corps Civilian
        Conservation Center, such as the Center’s Welding Contract, and only authorize
        and approve payments as specified in the individual contracts.

     3. Discontinue the practice of bypassing Human Resources and the Government
        Contracting Officer regarding personal services contracts when hiring temporary
        employees.

     4. Follow PRH prescribed internal controls governing expenditures for non-personal
        services and contracts to ensure all future expenditures are supported by a
        proper invoice, comply with Federal Acquisition Regulation guidelines, support
        the Job Corps’ mission, and are properly recorded into the Center’s General
        Ledger.

     5. Expeditiously deposit all cash received on Center from the sale of meal tickets
        and student-assessed fines for government property lost or damaged and ensure
        these funds are credited back to the Center cost category that purchased the
        material, as required by the PRH.

     6. Review the questioned costs of $169,847 addressed in this report and as
        appropriate, lower future year operating budgets for costs that do not benefit the
        Job Corps’ program and its students.

Auditee Response

The DOL, Office of Job Corps, National Director, concurred with the six
recommendations made to improve financial management at the Center. The USDA
Forest Service, National Director of Job Corps will direct Center staff to establish
controls and verify that costs submitted to the DOL are accurate, timely, classified
correctly, and reported on an accrual basis. In addition, the USDA Forest Service,
National Director of Job Corps will ensure that cost reports (2110F) are reconciled to the
USDA Forest Service’s General Ledger. Additionally, the DOL, Office of Job Corps,
National Director has instructed the DOL, Office of Job Corps, Atlanta Regional Director
to provide technical assistance and training to USDA Forest Service personnel and



14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


Center staff as requested, and to ensure monitoring of the 2110F reports submitted by
Center staff.

Further, the USDA Forest Service, National Director of Job Corps will ensure that USDA
Forest Service and Center staff: retain copies of active contracts and ensure the
propriety of payments; follow Federal guidelines when hiring temporary employees;
ensure expenditures are properly supported, comply with FAR acquisition requirements,
support the Job Corps mission, and are properly recorded in the General Ledger; and
ensure collected funds are deposited and credited back to the Center in an expeditious
manner. Lastly, the USDA Forest Service, National Director of Job Corps will review
the questioned costs to ensure the expenditures were appropriately charged in support
of the Job Corps program, and report back the results of the review to the DOL, Office
of Job Corps, Atlanta Regional Director.

The Agency’s verbatim response to these 6 audit recommendations can be found in
Appendix D.

OIG Conclusion

The OIG agrees that the planned corrective actions were appropriate to the
recommendations made, and we consider audit recommendations 1-6 resolved and
open. To close these recommendations, the Office of Job Corps needs to provide
documentation showing their planned corrective actions have been completed.

Also, please note that we made technical corrections and minor edits in this report. For
example, the questioned costs of $171,719 in Recommendation 6 (Page 14) were
corrected to $169,847. Correspondingly, Job Corps’ response to our Draft Report in
Appendix D, (Pages 46 and 47), reflects the previous incorrect amount of $171,719 for
Recommendation 6.

Objective 2 – Student Accountability – Did Center management comply with PRH
requirements to establish standard operating procedures that describe Student
Accountability and were these procedures properly implemented?


Finding 2. – Center management complied with the PRH requirement to establish
standard operating procedures that described student accountability; however,
PY 2005 performance data related to student accountability was unreliable.

Center management complied with the PRH requirement to establish standard
operating procedures that described student accountability; however, PY 2005
performance data related to student accountability was unreliable. This occurred
because the procedures used to account for students did not work as designed. As a
result, student attendance, leave, and AWOL data in the CIS were not reliable.
Moreover, Center management did not comply with Job Corps leave and AWOL
policies, and as a result, the Center retained 74 students for 2,744 days beyond their
required termination dates.

U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

Specifically the Center’s:

     •   Serialized sign in/out log was not adequate to track the entrance and exit of
         students from the Center. (Finding 2a)
     •   Residential Living Associates performed daily dorm bed checks; however,
         documentation was either not available for audit or did not agree with the
         Student’s Accountability Status on the Center Morning Report (22 percent error
         rate). (Finding 2b)

     •   Student morning sign-in sheets were either not available for audit or did not
         agree with the Student’s Accountability Status on the Center Morning Report (26
         percent error rate). (Finding 2c)

     •   Daily class attendance rosters, showing the student attended class, did not agree
         with the Student’s Accountability Status on the Center Morning Report (12
         percent error rate). (Finding 2d)

     •   Student leave was not reasonable, supportable, or allowable. (Finding 2e)

     •   Management did not comply with the PRH requirement to terminate students with
         excessive AWOLs (82 percent error rate). (Finding 2f and 2g)

     •   Student files did not have documentation showing the Center contacted or
         attempted to contact the AWOL students (88 percent error rate). (Finding 2h)

We concluded the aforementioned conditions occurred because the Center had a
centralized control environment that negated the effectiveness and diminished the
importance of the daily controls required of staff throughout the Center. For example,
the Center Director decided whether or not to terminate students that exceeded
established AWOL limits defined in the PRH. Center staff were not empowered to
comply with the PRH. We identified problems with all the daily controls such as
signature logs, bed checks, and class attendance. In addition, Center management did
not adhere to PRH leave policy for its students, and we are 95 percent confident that
between 261 and 1,127 of the 4,956 student leave days shown in the CIS for PY 2005
were not reasonable, supportable, or allowable. We also identified an 82 percent non-
compliance rate (50 of 61 students) with the PRH policy to terminate students with
excessive AWOLs. All of the above problems culminated in the Center’s management
retaining 74 students for 2,744 days beyond their required termination dates in
disregard to the PRH’s leave and AWOL policies.

Background. Student accountability refers to the Center’s implementation of controls
designed to know, at all times, the whereabouts of every enrolled student. The PRH
requires each Center to establish Standard Operating Procedures (SOPs) that describe
student accountability controls. The Center had five procedures designed to account for
their students. These were:


16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


   •   Serialized sign in/out register for entry and exit from the Center
   •   Daily dorm bed checks by Residential Living Associates
   •   Resident student rosters signed by each student each morning
   •   Class attendance rosters completed for each class by the Instructor
   •   Leave forms to record a student’s approved absence from the Center

When these five procedures are performed correctly, Center staff know the
whereabouts of every student at all times. Each day, Center staff prepare a morning
report that captures the status of each student, such as present for duty or in an
authorized leave status. In turn, the student’s status (accountability) is recorded in the
CIS. The student status could not be properly determined unless the Center’s SOP was
properly implemented. When completing the morning report (using the information
gathered from the five aforementioned accountability procedures) and a student’s
whereabouts cannot be determined, the student should be recorded in the CIS as
Temporarily Unaccounted For or as Absent Without Leave (AWOL).

Each Center must establish a viable student accountability system because it is
necessary to identify and pay those students who attended required training. In
contrast, student accountability is also necessary to identify those students who
continually fail to comply with attendance requirements. Management must account for
these students and comply with mandatory student terminations when called for by the
PRH. For example, Center officials must terminate all students with 6-consecutive
AWOL training days. In addition, the handbook requires Center officials to terminate all
students with 12 cumulative AWOL days within any continuous 180-day period. These
student termination rules are collectively referred to as the 6/12 AWOL rule. Unless the
Center’s Student Accountability system works as designed, a Center cannot implement
the intent of the PRH to expend its limited resources on those eligible students that are
motivated enough to attend mandatory training.

Finding 2a. Serialized sign in/out log was not adequate to track the entrance and
exit of students from the Center.

The Center’s Serialized Enter/Exit Signing Log was inadequate to track the entrance or
exit of students to and from the Center. The Log is just a blank form, not numbered,
and not monitored properly to capture accurate information of students leaving and
entering the center. In addition, names on the log were not legible. We could not
determine if or when a student who signed-out had signed back in to the Center. We
concluded the logs used by the Center were not auditable.

Finding 2b. Daily bed check documentation was either not available or disagreed
with the Student’s Accountability Status on the Center Morning Report.

Daily bed check documentation was either not available for audit or the information from
the bed check disagreed with the Center Morning Report for 334 of 1,547 judgmentally
sampled transactions (22 percent error rate). For the 7-day period January 3, 2006


U.S. Department of Labor—Office of Inspector General                                     17
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

through January 9, 2006 1 , we reviewed 1,547 bed checks for 221 in-residence students.
Center management could not provide bed check forms for 280 bed checks. In
addition, we identified 32 instances where the Center Morning Report showed the
Student Accountability Status as “Present on the Center” when the bed check showed
the student as absent; and 22 instances where the Center Morning Report showed the
Student Accountability Status as absent from the Center when the bed check showed
the student as “in their bed.”

Finding 2c. Student morning sign-in sheets were either not available for audit or
did not agree with the Student’s Accountability Status on the Center Morning
Report.

Student morning sign-in documentation was either not available for audit or the
information from the Resident Student Roster (morning sign-in) disagreed with the
Center Morning Report for 395 of 1,547 judgmentally sampled transactions (26 percent
error rate). For the 7-day period January 3, 2006 through January 9, 2006, we reviewed
1,547 bed checks for 221 in-residence students. These tests disclosed 395
discrepancies. The Center did not have documentation to support 331 sign-ins. In
addition, we identified another 64 instances where the student status reflected on the
student morning sign-in disagreed with the Student Accountability Status shown on the
Center Morning Report.

In 42 of the 64 disagreements, the Center Morning Report showed the student as
present. However, the morning sign-in either showed a notation by staff showing the
student as AWOL; or the sign-in was blank indicating the student had failed to sign the
roster; or the student was not on Center and could not sign the roster.

In the remaining 22 of 64 disagreements, the Center Morning Report showed the
students as AWOL or on leave; however, the students’ signatures were on the morning
sign-in sheets, which indicated they were present on Center.

Since the student sign-in procedure took place at 6:30 AM, and management had ample
time to use this information when they compiled the Center Morning Report at 9:00 AM,
we concluded Center personnel were not always using the established internal control
of morning sign-ins to “account” for students.

Finding 2d. The Center’s daily class attendance rosters, showing the student
attended class, did not agree with the Student’s Accountability Status on the
Center Morning Report.

Daily class attendance sheets disagreed with the Center Morning Report for 142 of
1,155 sampled transactions 2 (12 percent error rate). Our judgmental selection of the

1
  We judgmentally selected this 7-day time period because students were returning from winter break, and in our
judgment, it was a crucial time for the Center’s Student Accountability system to work correctly.
2
  Our judgmental sample was designed to review the first five class days after students returned from their winter
break, which included January 4, 2006 through January 8, 2006. Using a population of 231 resident and non-resident

18                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 26-08-002-01-370
                                Performance Audit Of Schenck Job Corps Civilian Conservation Center


first five class days after students returned from winter break disclosed 142
discrepancies. An analysis of the 142 discrepancies disclosed:

    •   In 113 instances, the Center Morning Report showed the student present at the
        Center, but the daily class attendance sheet showed the student as absent from
        class.

    •   In 29 instances, the Center Morning Report showed the student away from the
        Center (such as AWOL or in a leave status), but the daily class attendance sheet
        showed the student as attending class.

Finding 2e. Center management granted student leave that did not comply with
PRH requirements that the absence from the Center be reasonable, supportable,
and allowable.

Center management granted student leave that did not comply with PRH requirements.
Using stratified 2-stage cluster sampling, we randomly selected 20, PY 2005, Center
students and reviewed all 204-leave days taken to determine whether the leave was
reasonable, supportable, or allowable based on the criteria and limitations shown in the
PRH Chapter 6, Exhibit 6-1. After performing this analysis, we identified 7 of the 20
students (35 percent) that were recorded in a leave status that was not reasonable,
supportable, or allowable by the PRH. Specifically, 34 of 204 leave days (17 percent
error rate) did not meet the requirements to grant a student leave status as specified in
the PRH.

    •   17 of 204 (8 percent) leave days were not considered reasonable. For example,
        the disciplinary review board decided on July 28, 2005, to terminate one student.
        Instead of immediately initiating the disciplinary separation, the Center placed the
        student on unpaid administrative leave through August 10, 2005.

    •   10 of 204 (5 percent) leave days were not supported by required documentation
        that must be maintained in the student's folder. For example, the student’s folder
        did not have the required leave form; or when a leave form was in the file, it was
        not approved.

    •   7 of 204 (3 percent) leave days exceeded the number of leave days allowed by
        the PRH. Specifically, management allowed one student to exceed the PRH limit
        of 30 days unpaid administrative leave and another student to exceed the 6-week
        limit governing work-based learning.

The audit identified 34 leave days as not reasonable, supportable, or allowable (see
Exhibit 2). Using statistical estimation methodology, we are 95 percent confident that
between 261 and 1,127 of the 4,956 student leave days shown in the CIS for PY 2005

students attending class 5 days, the universe of transactions to compare the class attendance records to the Center
Morning Report was 1155 transactions.


U.S. Department of Labor—Office of Inspector General                                                              19
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

were not reasonable, supportable, or allowable. However, the point estimate is that 694
leave days were not reasonable, supportable, or allowable in PY 2005.

Finding 2f. Center management did not comply with the PRH 6/12 AWOL rules to
terminate students that continually failed to comply with attendance
requirements.

Center management allowed students who should have been terminated early to
continue their enrollments beyond their required termination dates. Using a universe of
374 students that were separated in PY 2005, we judgmentally selected 133 students to
determine whether they exceeded the PRH established AWOL limits. The 133 students
we selected had a demonstrated history of being reported as AWOL and other
absences in CIS reports. By judgmentally selecting these students, we believed these
samples would allow us to determine whether the student exceeded the PRH, Chapter
6, Section 6.1 and Exhibit 6-1, criteria of being AWOL for 6 consecutive training days or
had 12 AWOL training days within a 180-consecutive-day period. Using students that
had violated the AWOL policy, we determined whether Center management complied
with the PRH 6/12 AWOL rules to terminate students that continually failed to comply
with attendance requirements. Of the 133 students reviewed, we identified 61 students
that met the PRH criteria of being AWOL for 6 consecutive training days or had 12
AWOL training days within a 180-consecutive-day period. An analysis of these 61
students disclosed that 50 students (82 percent) were not terminated timely as required
by the PRH. On average, these 50 students remained at the Center 43 days per
student beyond their required termination date. Specifics about these 50 students
follow:

     •   In 48 of 61 (79 percent) instances, the students violated the PRH 6 consecutive
         AWOL training day rule

     •   In 2 of 61 (3 percent) instances, the students violated the PRH 12 cumulative
         AWOL training day rule within a 180-consecutive-day period

     •   The Center inappropriately extended the 50 students enrollment by 2,159 days

     •   The number of days extended ranged from as little as 1 day to as much as 384
         days per student

We interviewed the Center Administrative Officer, Supervisor of Counseling, and the
Records Clerk to discuss why students were not terminated within the time limits
prescribed by the PRH. All three individuals stated that the previous Center Director
was the only person who made the decision when and if AWOL students would be
separated from the Center, and Center personnel were not empowered to enforce the
6/12 days AWOL rules prescribed in the PRH.

Responsible officials are required to implement controls over their programs, such as
the PRH policy to terminate students with an abusive AWOL history. From an audit

20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


perspective, we concluded that the Center’s management created a control
environment that substituted the Center Director’s authority and discretion over PRH
policy; and in doing so, prevented other Center employees such as the Record’s Clerk
and Counselors from initiating action to terminate students when the circumstances
warranted such action.

We also concluded that the oversight process did not work as designed. Both the
Program Manager (US Department of Labor-Atlanta Region) and the Project Manager
(USDA Forest Service-Denver HQS) had access to CIS reports that listed all of the
AWOL used. However, we did not find any instances where the oversight resulted in
actions to bring the Center back into compliance with the PRH.

Finding 2g. Center management did not comply with the PRH 6/12 AWOL rules to
terminate students that continually failed to comply with attendance requirements
(leave and AWOL histories reanalyzed).

Center management did not terminate students as required by the PRH in a timely
manner. We reviewed the leave history as shown in their student profiles for the 133
students we previously selected (see Finding 2f). Our review was designed to question
any leave transactions that did not meet PRH requirements and to treat that leave as
AWOL when warranted. In effect, we questioned whether the Center had complied with
both the leave and AWOL policies set forth in the PRH. From the leave history, we
combined each student’s AWOL days and leave days treated as AWOL to identify the
actual date when a student exceeded the 6/12 AWOL rule. Using this date as the
required termination date in accordance with the PRH, we identified the actual number
of days each student was allowed to remain at the Center after a student had 6
consecutive AWOL training days or 12 cumulative AWOL days in a 6-month period.

From our sample of 133 students, we identified an additional 24 students that would
have exceeded the PRH 6/12-day rule if the Center complied with existing leave policy.
These 24 students stayed at the Center another 585 days beyond their mandatory
termination date after exceeding the 6/12-day AWOL rule.

From our review of the 133 students, we concluded the Center retained 74 students for
a total of 2,744 days beyond the prescribed termination date (2159 days per Finding 2f
and 585 days per Finding 2g).

Finding 2h. Student files did not have documentation showing the Center
contacted or attempted to contact AWOL students.

Center management did not document attempted contacts with AWOL students as
required by the PRH. During our review of the compliance with the PRH 6/12 AWOL
rule, we also reviewed student files to determine whether Center personnel documented
attempts to contact AWOL students as required by the PRH, Chapter 6, Section 6.1, R3
(d). Our review of 133 student files disclosed that 117 (88 percent) did not have
documentation showing the Center contacted or attempted to contact the AWOL


U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

students. We discussed this problem with the Center Records Clerk. The Center
Records Clerk stated that the Center did try to contact AWOL students, but did not keep
the contact records in the student files.

Recommendations

We recommend that the National Director, Office of Job Corps, direct the Atlanta
Regional Job Corps Director to coordinate a series of corrective actions and planned
actions with the USDA Forest Service Job Corps National Director of Field Operations
to:

     7. Require Center management to comply with the Center’s student accountability
        system and policies and improve the process for using the Center’s current
        serialized sign-in/sign-out log, bed check procedures, student morning sign-in
        process, and recording student attendance during classes. The improvements
        should extend to the overall process used to create the Center Morning Report to
        allow Center management to know the whereabouts of all students at all times.

     8. Retain student accountability data and documentation as required for a period of
        no less than 3 years.

     9. Require all student leave granted by Center management to comply with criteria
        and limitations shown in the PRH Chapter 6, Exhibit 6-1 to ensure all leave is
        reasonable, supportable, and allowable.

     10. Immediately terminate students in AWOL status for 6-consecutive training days
         or who have 12 AWOL training days within a 180-consecutive-day period.

     11. Require Center management to attempt to contact all AWOL students and to
         document all attempts and contacts in the student’s file.

We also recommend that:

     12. The Atlanta Regional Job Corps Director direct his Program Manager
        responsible for the oversight of Student Accountability at the Center to review all
        Center Information System (CIS) reports for students in AWOL status. We
        further recommend that for each instance where the AWOL rules are violated
        that the Program Manager authenticate that the Center complied with the
        mandatory student termination as outlined in the PRH.

     13. The USDA Forest Service Job Corps National Director of Field Operations direct
         his Project Manager responsible for the oversight of Student Accountability at the
         Center to review all Center Information System (CIS) reports for students in
         AWOL status. We further recommend that for each instance where the AWOL
         rules are violated that the Project Manager authenticate that the Center complied
         with the mandatory student termination as outlined in the PRH.


22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




   14. The Atlanta Regional Job Corps Director and USDA Forest Service Job Corps
       National Director of Field Operations should intensify monitoring efforts at the
       Center. For all future visits to the Center, Job Corps Regional and Forest
       Service personnel should validate the Center’s Student Accountability process to
       verify that Center management knows the whereabouts of all students at all
       times.

Auditee Response

Regarding the eight recommendations to improve the Center’s student accountability,
the DOL, Office of Job Corps, National Director concurred with the recommendations.
The DOL, Office of Job Corps, National Director stated that the USDA Forest Service,
National Director of Job Corps, in August 2007, installed standard operating procedures
(SOPs) and placed a log book on center to monitor students. Additionally, multiple
SOPs were installed to: ensure data integrity; require student accountability
documentation be stored for no less than 3 years; prevent recurrence of AWOL
violations by ensuring future student leave is reasonable, supportable, and allowable;
and terminate students that violate PRH AWOL requirements. Further, the USDA
Forest Service, National Director of Job Corps will direct Center staff to immediately
attempt to contact all AWOL students, to record their contact efforts in the student’s file,
and to report outcomes to the DOL, Office of Job Corps, Atlanta Regional Director.

In addition, the DOL, National Office of Job Corps personnel will work with the DOL,
Office of Job Corps, Atlanta Regional Office staff to review CIS reports for students in
AWOL status, identify instances of non-compliance and report outcomes along with
recommendations to hold Center staff responsible for any questionable findings.
Furthermore, the DOL, Office of Job Corps, Atlanta Regional Director will submit a
directive to the USDA Forest Service, National Director of Job Corps requesting reviews
of CIS reports for students in AWOL status along with a report of their findings.
Afterwards, both offices will work to reconcile the findings identified by each office.
Further, USDA Forest Service personnel installed SOPs to prevent recurrence of AWOL
violations, and the USDA Forest Service, National Director of Job Corps delivered
training to center directors with respect to AWOL tracking, data integrity, and zero
tolerance. Lastly, the USDA Forest Service, National Director of Job Corps and the
DOL, Office of Job Corps, Atlanta Regional Director will increase monitoring efforts to
ensure all USDA Forest Service center directors comply with PRH requirements.

The Agency verbatim response to these additional 8 recommendations can be found in
Appendix D.

OIG Conclusion

The OIG agrees that the planned corrective actions were appropriate to the
recommendations made, and we consider recommendations 7 (develop new Standard
Operating Procedures and a new Log Book to monitor students), 9 (ensure future


U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

student leave is reasonable, supportable, and allowable), 11 (document their efforts to
contact AWOL students), and 13 (use the CIS to monitor AWOL students) resolved and
closed based on actions taken by the USDA Forest Service, National Director of Job
Corps. We consider recommendations 8, 10, 12, and 14 as resolved and open. To
close these recommendations, the Office of Job Corps needs to provide documentation
showing their planned corrective actions have been completed

Objective 3 — Student Accomplishments — Were student accomplishments
reported correctly into the CIS and did Center personnel maintain PRH required
documentation necessary to support accomplishments for High School
Diplomas, GED Certificates, and Vocational Completions?

Finding 3. – Student accomplishments were correctly reported in the CIS, and
Center personnel maintained PRH required documentation necessary to support
accomplishments for High School Diplomas, GED Certificates, and Vocational
Completions.

Student accomplishments were correctly reported in the CIS, and Center personnel
maintained PRH required documentation necessary to support accomplishments for
High School Diplomas, GED Certificates, and Vocational Completions. The Center
earns credit each time an enrolled student completes an educational accomplishment
such as earning a GED Certificate, earning a High School Diploma, or completing
vocational training. These accomplishments are recorded in the CIS and are shown on
each Center’s Report Card, the OMS-20. Our tests were designed to authenticate
student accomplishments recorded in the CIS. Using PY 2005 OMS-20 reports, we
randomly selected 30 of 96 educational accomplishments for students earning GED
Certificates or High School Diplomas and verified these accomplishments by reviewing
the actual student certificate/diploma. In addition, we randomly selected 30 of 198
students shown as PY 2005 vocational completions on the Center’s OMS-20. Training
Achievement Records were reviewed to determine whether each student met the
criteria necessary to be recorded as having completed a vocation. We found that
performance data on High School Diplomas, GED Certificates, and Vocational Training
reported in the CIS were properly supported.

Objective 4 — Student Drug Testing Program — Did Center management
establish a drug testing program that complied with the PRH?


Finding 4. – Center management established a drug-testing program that
generally complied with the PRH.

Center management established a drug-testing program that generally complied with
the PRH. We randomly selected 30 students newly enrolled in PY 2005 to determine
whether each was drug tested in accordance with the PRH, and whether students that
tested positive were tested again after 45 days. The review disclosed one student had
tested positive for both drug tests but was not terminated as required by the PRH.

24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


Because Center management explained their rationale for retaining the student and
because only one problem was discovered, we randomly selected another 30 students,
and discovered 100 percent compliance with all PRH requirements. Based on both
audit tests that examined 60 students, we concluded that student drug testing at
Schenck did not represent a reportable problem and that in general, Center
management complied with the intent of the PRH. Our work was designed to discover
“systemic failures in complying with the PRH.” However, no such systemic failures were
discovered.

Objective 5 – Student Safety and Health Associated with Job Corps Facilities –
Did Center personnel comply with Safety and Health inspection procedures
governing Job Corps facilities as called for in the PRH, and did Center
management expeditiously address problems discovered during inspections?


Finding 5. – Center personnel complied with safety and health inspection
procedures governing Job Corps facilities as called for in the PRH.

Center personnel complied with safety and health inspection procedures governing Job
Corps facilities as called for in the PRH. We interviewed the Center’s staff and
reviewed facility maintenance reports to understand the process implemented by the
Center. Specifically, we reviewed the four most recent Environmental Health Inspection
reports performed in May, August, and November 2006, and February 2007, as well as
the 2004, 2005, and 2006 annual safety and health review performed by Link
Technologies (under contract with DOL) to determine whether management acted
expeditiously to resolve problems. We concluded management acted expeditiously to
address open items and found these reports gave Schenck overall ‘high’ ratings for
safety and health inspections. The Center received overall ratings for safety
inspections, averaging between 98 and 99 out of 100 for all their facilities.

Objective 6 — Internet Security — Did Center personnel establish procedures to
prevent access to unauthorized internet web sites?


Finding 6. – Center personnel established procedures to prevent access to
unauthorized internet web sites.

Center personnel established procedures to prevent access to unauthorized internet
web sites. We developed an internal control questionnaire and interviewed the Center
staff to gain an understanding of how the Center educated its students about overall
internet security. We determined that the Center's policies and procedures regarding
internet security were adequate. Specifically, students were required to attend training
and sign an agreement before they could access the internet through Center
computers. In addition, the Center had established two levels of security, Websense
and Security Agent, designed to restrict assess to unauthorized sites and to establish
an audit trail of each site visited. Finally, we accessed two Center computers,


U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

attempted to gain access to unauthorized sites, were denied access, and concluded
controls were established and worked as they were designed.




Elliot P. Lewis




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




Exhibit




U.S. Department of Labor—Office of Inspector General                                     27
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                                   Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                                          EXHIBIT 1

               COMPARISON BETWEEN CENTER 2110F AND GENERAL LEDGER


Expense                Cost Category Name                   Costs on Form      Costs on Form
Line                   Shown on Form 2110F                  2110F was          2110F were
Number                                                      Less than          Greater than
Per 2110F                                                   Costs Reported     Costs Reported in
                                                            in the G/L 3       the G/L
           1           Academic Personnel                             $6,511
                       Expenditure
           2           Other Academic Expenditure                      2,190

           3           Vocational Personnel                           39,225
                       Expenditure
           4           Other Vocational Expenditure                                          $2,132

           5           Social Skills Personnel                        21,072
                       Expenditure
           6           Other Social Skills                                                     9,932
                       Expenditure
           7           Food                                            5,201

           9           Support Service Personnel                                               3,532
                       Expenditure
          10           Other Support Service                                                 12,836
                       Expenditure
          11           Medical Personnel                                                     79,250
                       Expenditure
          15           Administrative Personnel
                       Expenditure                                       445
          16           Other Administrative                           27,103
                       Expenditure
          23           Utilities and Fuel                                946

          26           Motor Vehicle Expenditure                         201

Total                                                              $102,894                $107,682




3
    G/L is the abbreviation for General Ledger

U.S. Department of Labor—Office of Inspector General                                               29
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                                EXHIBIT 2

             EXCEPTIONS NOTED DURING STUDENT LEAVE TESTING


   A- Leave was not reasonable
   B- Leave was not properly documented or approved
   C- Leave violated PRH limits

Student ID       Reason for Questioning Leave Days            A        B        C
661327           No leave documented in the student file.         X        X
735964           Student left the Center on 6/13/05, but          X
                 was put on unpaid leave pending Review
                 Board then finally separated on 8/8/05.
738825           Student left the Center on 6/19/05,              X        X
                 however, student was allowed two-week
                 summer break, put on leave, and finally
                 disciplinary separated on 8/8/05.
721893           The Disciplinary Board decided on                X
                 7/28/05 to terminate the student.
                 However, the Center put the student on
                 unpaid leave through 8/10/05 then,
                 disciplinary separated.
778028           Unreasonable leave to visit family friend,       X        X
                 leave was not documented.
538536           Exceeded 6-week limit per PRH for work                             X
                 based learning (WBL); started WBL on
                 5/13/05, the 6th week ended 6/24/05 and
                 beyond this date leave was not allowable
                 per PRH.
783713           Inadequate documentation of leave;               X        X        X
                 exceeded the 30-day limit for
                 Administrative Leave without Pay by 13
                 days. The student had 43 total days for
                 the year.
Total Days of    There were 34 leave days we considered           17       10       7
Questioned       unallowable per the PRH.
Leave




U.S. Department of Labor—Office of Inspector General                                     31
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




Appendices




U.S. Department of Labor—Office of Inspector General                                     33
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                             APPENDIX A
BACKGROUND

Job Corps is a national residential training and employment program authorized by Title
I-C of the Workforce Investment Act (WIA) of 1998. Included in the WIA is a provision
for Job Corps centers to be operated by other Federal agencies. These type of centers
are referred to as CCCs. DOL currently has agreements with the U.S. Department of
Agriculture (USDA) and the Department of Interior to operate CCCs. Job Corps assists
eligible disadvantaged people between the ages of 16 to 24 and gives them the
opportunity to learn career skills, earn their high school diplomas or GEDs, and gain the
confidence necessary to begin a successful career including entering military service.

The DOL Office of Job Corps, under the leadership of a National Director, administers
the program with support by National Office staff and a network of six Regional Offices.
The DOL formulates the budgets of federally operated centers annually on a cycle that
coincides with July 1 through June 30, Job Corps’ PY. Through an Interagency
Agreement between USDA Forest Service and the DOL, last updated in July 1974,
USDA Forest Service agreed to use the funding in accordance with the PRH and in
accordance with the interagency agreement. For PY 05 (July 1, 2005, through June 30,
2006), the Schenck Job Corps Center received approximately $6 million to fund Center
operations.

Cost information is reported to Job Corps on quarterly Forms 2110F reports by the
USDA Forest Service through its financial management system. These reports are
used by Job Corps in its compilation of nationwide Job Corps cost data for inclusion in
reports to the Congress, to the public, and for comparison with other centers. Job
Corps centers, including CCCs, are required to record information related to student
accomplishments and accountability in the CIS. This information is used by Job Corps
to report center performance, and the information is also made available to Congress in
accordance with WIA legislation.

Schenck is one of 19 centers managed by the Job Corps National Office for the US
Forest Service, located in Denver, Colorado. Centers report financial and performance
data to the DOL National Job Corps Office through DOL’s CIS maintained in Austin,
Texas. Oversight responsibility for Schenck is the responsibility of both the US Forest
Service’s assigned Project Manager in Denver, and the DOL Regional Job Corps
Program Manager located in Atlanta, Georgia.




U.S. Department of Labor—Office of Inspector General                                     35
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                             APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

OBJECTIVE

Our audit objective was to determine whether financial and performance data was
accurate, and whether the Center’s internal controls and operational procedures
complied with Job Corps’ PRH. Financial and performance data covered PY 2005 that
ended on June 30, 2006. We examined financial data used to prepare Schenck Job
Corps Center’s Form 2110F and performance data that comprised the Center’s reported
student accountability and student accomplishments. We also examined key internal
controls related to the Student Drug Testing Program, student safety and health
inspections associated with Job Corps facilities, and internet access. To accomplish the
audit, we formulated six sub objectives. Each sub objective is presented below in the
form of a question, and each question is answered in the results section of this report.

   1. Financial Management and Reporting. Did the USDA Forest Service and the
      Center account for and report PY 2005 Center expenditures totaling
      approximately $6 million in accordance with procedures outlined in the PRH?

   2. Student Accountability. Did Center management comply with PRH
      requirements to establish standard operating procedures that describe Student
      Accountability and were these procedures properly implemented?

   3. Student Accomplishments. Were student accomplishments reported correctly
      into the CIS and did Center personnel maintain PRH required documentation
      necessary to support accomplishments for High School Diplomas, GED
      Certificates, and Vocational Completions?

   4. Student Drug Testing Program. Did Center management establish a Student
      Drug Testing Program that complied with the PRH?

   5. Student Safety and Health Associated with Job Corps Facilities. Did Center
      personnel comply with student safety and health inspection procedures
      governing Job Corps facilities as called for in the PRH, and did Center
      management expeditiously address problems discovered during inspections?

   6. Internet Security. Did Center personnel establish procedures to prevent access
      to unauthorized internet web sites?

SCOPE

Our audit of financial and performance data covered PY 2005, July 1, 2005 through
June 30, 2006. We reviewed the four PY 2005 quarterly Forms 2110F to identify
reported expenses. Student Accountability data was obtained from Center Morning
Reports maintained in the CIS. We validated the reports to determine the accuracy of

U.S. Department of Labor—Office of Inspector General                                     37
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

reported OBS. In addition, we determined how violations of AWOL policy and student
leave deficiencies affected OBS. We also examined the student accomplishments of
High School Diplomas, GEDs, and Vocational Training Completions as recorded in the
CIS and internal controls applicable to center operations.

During our audit, we used performance and attendance data recorded in the CIS. We
compared this data to the Center’s documentation to determine if performance and
attendance data recorded in the CIS by Center personnel were accurate. We obtained
financial data from the general ledger of USDA Forest Service. The reliability of the
Center’s computerized data showing expenditures was determined by comparing data
in the USDA Forest Service’s General Ledger to the 2110F data maintained by the Job
Corps Data Center and performing analyses of selected expenditures and comparing
supporting documentation to those expenditures.

METHODOLOGY

Financial Management and Reporting was evaluated by comparing the Center's PY
2005 reported Net Center Operating Expenses on Form 2110F to General Ledger
account balances for Schenck Job Corps Center expenses. These general ledger
transactions are maintained at the US Forest Service’s Albuquerque Service Center. In
addition to examining overall reported expenses, we also reviewed all line entries on the
Form 2110F, such as a food expense, to the corresponding general ledger accounting
codes. We evaluated all 29 line entries with expenses. In order to determine whether
Center expenses were supported with proper documentation, properly processed (to
include compliance with the FAR), and appropriately authorized for payment, we
judgmentally sampled 33 Center payments. These 33 transactions, totaling $263,785,
were judgmentally selected by taking between 1 and 3 monthly payments for each
Center contract, and by selecting 1-2 of the highest dollar value transactions for each of
the Form 2110F line entries, such as a food expense. Further, we identified two
situations (sale of meal tickets and student fines for GPLDs) where cash would be
received by the Center and verified whether funds collected were deposited and
credited against Center expenses during PY 2005. Lastly, we counted on-hand cash
and assessed operating procedures to deposit cash.

For financial activity, we used a combination of analytical procedures, staff and
management interviews, and document examinations. We traced selected costs
through the general ledger and examined vouchers and other supporting documentation
to authenticate the recorded transactions.

In our internal control analysis, we relied on our assessment of the control environment
of USDA Forest Service management and Center management to determine the
reliance we would place on internal control. Based on that assessment, we decided to
rely on analytical and document examinations using substantive audit procedures rather
than testing of controls. We considered the internal control elements (control
environment, risk assessment, control activities, information and communication, and
monitoring) during our planning and substantive audit phases.


38                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


Student Accountability was evaluated by determining whether the Center's SOPs
designed to know the whereabouts of every student at all times were developed and
implemented. We examined the sign in/out register used to record student’s entry and
exit from the Center, and SOPs governing daily bed checks and resident student sign-in
rosters. Class attendance data were examined by judgmentally selecting the 7-day
period after the winter break and testing compliance with the Center’s rules and the
PRH. Specifically, we selected the period January 3, 2006, to January 9, 2006,
because, in our opinion, the period following the winter break would challenge the
Center's Student Accountability system since most students were returning, and the
Center was technically going from zero to 231 students. We then compared each bed
check, sign-in, and class attendance report to the Center Morning Report to determine
whether the 221 in-residence students and 10 off-center students were reported
correctly. In affect, this test compared the internal controls supporting each student's
status at the center to the student's status reported to Job Corps.

Using two-stage, three-strata, statistical sampling techniques, we randomly selected 20,
PY 2005, Center students and reviewed all 204-leave days taken to determine whether
each of the 204 leave days was reasonable, supportable, or allowable per criteria and
limitation rules prescribed in the PRH Chapter 6, Exhibit 6-1. The total universe of leave
days for PY 2005 was 4,956. We projected our sample results using a statistical
technique with a 95 percent confidence level.

Using a universe of 374 students that were separated in PY 2005, we judgmentally
selected 133 students to determine whether they exceeded the PRH established AWOL
limits, and if they had, to determine whether management acted to separate any of the
students. The 133 students were judgmentally selected because these students
demonstrated a history of being shown as absent from the Center. From the
judgmental sample of 133 student separations in PY 2005, we identified whether any
students exceeded either the PRH AWOL 6-consecutive-training-day rule, or had
violated the PRH AWOL 12-day rule (within a 180-consecutive-day period). Lastly, we
identified the date each student should have been separated if the PRH AWOL rule had
been enforced, and determined the number of days the Center retained each student
after their mandatory separation date.

Since student leave transactions did not always comply with the PRH and Center
management did not comply with the PRH 6/12 AWOL rules, we performed a second
test using the same 133 students with a history of being shown as absent from the
Center. Specifically, we reviewed each student’s leave and determined whether the
leave conformed to PRH guidelines, and if it did not, we counted that absence as
AWOL. From the leave history, we combined each student’s AWOL days and leave
days treated as AWOL (if that leave did not conform to the PRH guidelines), to identify
the actual date when a student exceeded the PRH 6/12 AWOL rule. Using this date as
the required termination date in accordance with the PRH, we identified the actual
number of days each student was allowed to remain at the Center after a student had 6
consecutive AWOL training days or 12 cumulative AWOL days in a 6-month period.



U.S. Department of Labor—Office of Inspector General                                     39
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center

During our review of the compliance with the PRH 6/12 AWOL rule, we also reviewed
student files to determine whether Center personnel documented attempts to contact
AWOL students as required by the PRH, Chapter 6, Section 6.1, R3 (d). We reviewed
the same 133 files that were judgmentally selected to perform our tests.

Student Accomplishments were examined by using PY 2005 OMS-20 reports that
show student accomplishments. We randomly selected 30 of 96 educational
accomplishments for students earning GED Certificates and High School Diplomas and
verified these accomplishments by reviewing the actual student certificate/diploma. In
addition, we randomly selected 30 of 198 students who completed vocations in PY 2005
as shown on the Center’s OMS-20. Training Achievement Records were reviewed to
determine whether each student met the criteria necessary to be recorded as having
completed a vocation.

Student Drug Testing Program was examined by randomly selecting the files of 60
newly enrolled students from a universe of 362 in PY 2005 to determine whether each
was drug tested in accordance with the PRH, and whether students that tested positive
were tested again after 45 days.

Student Safety and Health Associated with Job Corps Facilities was examined by
interviewing the Center’s staff and reviewing facility maintenance reports to understand
the process implemented by the Center. Specifically, we reviewed the four most recent
Environmental Health Inspection reports performed in May, August, and November
2006, and February 2007, as well as the 2004, 2005, and 2006 annual safety and
health review performed by Link Technologies (under contract with DOL). We reviewed
these reports to determine whether management acted expeditiously to address open
items and to understand the overall rating for safety and health inspections of all job
corps facilities.

Internet Security was evaluated by developing an internal control questionnaire and
interviewing Center staff to gain an understanding of the process established by the
Center regarding its internet security. In addition, we observed the procedures
implemented by the Center over its internet security. Finally, we physically tested
selected computers in various locations for unauthorized access.

We performed our audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States, and performed such tests, as we
considered necessary to satisfy our audit objectives.

PRINICIPAL CRITERIA

In addressing the audit objectives, we reviewed relevant Federal laws, regulations,
policies, and guidance. These included the following:

     •   Federal Acquisition Regulation
     •   Job Corps Policy and Requirements Handbook

40                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


   •   USDA Forest Service and Department of Labor Interagency Agreement of 1974
   •   Schenck Job Corps CCC Operating Procedures




U.S. Department of Labor—Office of Inspector General                                     41
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS

AWOL                        Absent Without Leave

CCC                         Civilian Conservation Center

Center                      Schenck Job Corps Civilian Conservation Center

CIS                         Center Information System

DOL                         Department of Labor

FAR                         Federal Acquisition Regulation

FPI                         Federal Prison Industries

GED                         General Educational Development

G/L                         General Ledger

GPLD                        Government Property Lost or Destroyed

HSD                         High School Diploma

OBS                         On-Board-Strength

OIG                         Office of Inspector General

OMS                         Outcome Measurement System

PRH                         Policy and Requirements Handbook

PY 2005                     Program Year 2005

RO                          Job Corps Regional Office

SOP                         Standard Operating Procedure

UPAL                        Unpaid Administrative Leave

USDA                        United States Department of Agriculture

USDA Forest Service         United States Department of Agriculture’s Forest Service

WIA                          Workforce Investment Act

U.S. Department of Labor—Office of Inspector General                                     43
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center


                                                                             APPENDIX D
AUDITEE RESPONSE TO REPORT




U.S. Department of Labor—Office of Inspector General                                     45
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




46                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     47
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




48                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     49
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




50                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     51
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




52                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     53
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




54                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     55
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




56                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     57
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




58                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     59
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




60                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     61
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




62                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     63
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




64                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     65
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




66                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     67
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




68                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     69
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




70                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     71
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




72                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     73
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




74                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
                         Performance Audit Of Schenck Job Corps Civilian Conservation Center




U.S. Department of Labor—Office of Inspector General                                     75
Report Number: 26-08-002-01-370
Audit of Schenck Job Corps Civilian Conservation Center




76                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-08-002-01-370
